      Department of Homeland Security




    Independent Review of the U.S. Coast Guard’s
   Reporting of FY 2011 Drug Control Performance
                    Summary Report




OIG-12-32                                    January 2012

                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                              JAN 30 2012 

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the Department.

This report presents the results of the review of the Performance Summary Report of the U.S. Coast
Guard for the year ended September 30, 2011, for the Office of National Drug Control Policy. We
contracted with the independent public accounting firm KPMG LLP to perform the review. The
U.S. Coast Guard prepared the Performance Summary Report and management assertions to comply
with requirements of the Office of National Drug Control Policy Circular, Drug Control Accounting,
dated May 1, 2007. KPMG LLP is responsible for the attached independent accountants’ report
dated January 20, 2012, and the conclusions expressed in it. We do not express an opinion on the
Performance Summary Report and management’s assertions.

We trust this report will result in more effective, efficient, and economical operations. We express
our appreciation to all of those who contributed to the preparation of this report.




                                             Anne L. Richards
                                             Assistant Inspector General for Audits
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                      Independent Accountants’ Report


Acting Inspector General
U.S. Department of Homeland Security

We have reviewed the accompanying Performance Summary Report of the U.S. Department of Homeland
Security’s (DHS) United States Coast Guard (USCG) for the year ended September 30, 2011. We have
also reviewed the accompanying management’s assertions for the year ended September 30, 2011.
USCG’s management is responsible for the Performance Summary Report and the assertions.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Performance Summary Report
and management’s assertions. Accordingly, we do not express such an opinion.

Management of USCG prepared the Performance Summary Report and management’s assertions to
comply with the requirements of the Office of National Drug Control Policy (ONDCP) Circular, Drug
Control Accounting, dated May 1, 2007 (the Circular).

Based on our review, nothing came to our attention that caused us to believe that (1) the Performance
Summary Report for the year ended September 30, 2011, is not presented, in all material respects, in
conformity with the Circular, or that (2) management’s assertions referred to above are not fairly stated, in
all material respects, based on the criteria set forth in the Circular.

This report is intended solely for the information and use of management of DHS and USCG, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




January 20, 2012




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
U.S. Department of                   Commandant                     2100 Second Street, S.w.
Homeland Security                    United States Coast Guard      Washington, DC 20593-7681
                                                                    Staff Symbol: DCC-81
                                                                    Phone: (202) 372-1340
United States                                                       Emaittimothy.g.meyers@uscg .mil
Coast Guard


                                                                   7110
                                                                   January 17,2012

Mr. John D. Shiffer
Department of Homeland Security
Director of Financial Management
Office of the Inspector General



Dear Mr. Shiffer,

In accordance with the Office of National Drug Control Policy Circular: Annual Accounting of
Drug Control Funds dated May 1,2007, enclosed is the Coast Guard's final FY 2011
Perfonnance Summary Report.

If you require further assistance on this infonnation, please contact LCDR Timothy Meyers,
202-372-1340.

                                             Sincerely,



                                             C~S
                                             Captain, U.S. Coast Guard
                                             Chief. Office of Perfonnance Management &
                                             Assessment

Enclosure (1) FY 2011 Perfonnance Summary Report

Copy:      DHS Budget Office
Enclosure (1) to letter dated January 20, 2012




                                   Drug Budget


       United States Department of Homeland Security


                        United States Coast Guard


             Performance Summary Report FY 2011





01/20/2012                                             Created by DCO-81


                                        Page 1 of 6

Enclosure (1) to letter dated January 20, 2012




I. PERFORMANCE INFORMATION

Decision Units: Primary Outcome Measure

NOTE: Although the Coast Guard appropriation is apportioned along budget decision
unit lines (i.e., Acquisitions, Construction & Improvements (AC&I), Operating Expenses
(OE), Research Development Testing and Evaluation (RDT&E), and Reserve Training
(RT)), the Coast Guard does not manage performance along decision unit lines. This is
impractical due to the multi-mission performance of our assets, which transcends budget
decision units.

The Coast Guard’s drug interdiction performance is best summarized by the lead outcome
measure of the program. This measure is the central focus of its Performance Summary
Report. The Coast Guard Maritime Law Enforcement Program has a suite of metrics that
support the lead outcome measure. The lead outcome measure and its supporting metrics
suite were validated during a 2007 Office of Management and Budget (OMB) Program
Assessment and Rating Tool (PART) Evaluation. In FY 2009, the Coast Guard
transitioned the methodology by which it calculates its primary outcome measure as
recommended by the 2007 Independent Program Evaluation by the Center for Naval
Analyses. The Coast Guard transitioned from the Interagency Assessment of Cocaine
Movement (IACM) to the Consolidated Counter Drug Database (CCDB) as the
authoritative source for estimating illicit drug flow through the transit zone. The change in
methodology permits the Coast Guard to evaluate its performance on a quarterly basis.
Historically, CCDB cocaine movement estimates are higher than the IACM because it
includes all confidence maritime flow (IACM does not count low confidence data), which
translates to a lower performance result for cocaine removal rate. Additionally, DHS
leadership reviewed and approved this metric as a Coast Guard Management metric in
2010. This metric is included as part of the Coast Guard’s annual budget submission.

Measure: Cocaine Removal Rate (Removal rate for cocaine from non-commercial vessels
in the maritime transit zone (CCDB)).

Table 1: Cocaine Removal Rate

 FY 2007        FY 2008        FY 2009         FY 2010        FY 2011          FY 2011          FY 2012
  Actual         Actual         Actual          Actual         Actual           Target           Target
  16.6%          13.2%          15.0%           13.5%          11.6%            15.5%            16.5%

 (1) Describe the measure. In doing so, provide an explanation of how the measure (a) reflects the purpose of
the program, (b) contributes to the National Drug Control Strategy, and (c) is used by management of the
program. This description should include sufficient detail to permit non-experts to understand what is being




01/20/2012                                                                         Created by DCO-81

                                               Page 2 of 6
Enclosure (1) to letter dated January 20, 2012

measured and why it is relevant to the agency’s drug control activities. 1

The goal of the Coast Guard’s Drug Interdiction program is to reduce the supply of illegal
drugs within the United States by denying smugglers the use of air and maritime routes by
projecting an effective law enforcement presence in and over the six million square mile
transit zone of the Caribbean Sea, the Gulf of Mexico and the Eastern Pacific Ocean. The
Coast Guard’s primary outcome measure, the Cocaine Removal Rate, indicates how
effective the program is at disrupting the flow of cocaine traveling via non-commercial
maritime means toward the United States. The more cocaine bound for the United States
that the Coast Guard removes, the less supply of cocaine available within the United States.
The cocaine removal rate is calculated by dividing the total amount of cocaine removed
(drugs interdicted, jettisoned, scuttled) by the Coast Guard by the total estimated non­
commercial maritime movement of cocaine towards the United States. Both of these
assessments are captured and validated in the CCDB.

The 2010 National Drug Control Strategy maintains the interagency, transit zone removal
rate goal for cocaine at 40% by 2015; a goal originally set in the 2007 National Drug
Control Strategy. With over 80% of the cocaine moving through the transit zone via non­
commercial maritime means, the national goal is achievable with a higher Coast Guard
cocaine removal rate, assuming no decrease in domestic and international partner agency
performance to achieve that 40% goal. Maritime Law Enforcement program managers
monitor the cocaine removal rate, watching for both changes in Coast Guard removals as
well as increases or decreases in flow. Any changes are diagnosed to determine the cause
and to develop strategies and tactics to continue to increase the removal rate. Factors that
can impact the removal rate include, but are not limited to, changing modes, tactics and
routes by the drug trafficking organizations (DTOs); increased or decreased patrol effort by
the Coast Guard or its drug interdiction partner agencies/nations; the availability, quality
and timeliness of tactical intelligence; new or upgraded diplomatic and legal tools; and the
fielding of new capabilities (National Security Cutter and HC-144A aircraft, for example).
(2) Provide narrative that examines the FY 2011 actual performance results with the FY 2011 target, as well
as prior year actual results. If the performance target was not achieved for FY 2011, the agency should
explain why this is the case. If the agency has concluded it is not possible to achieve the established target
with available resources, the agency should include recommendations on revising or eliminating the target.

In FY 2011, there was an observed reduction in cocaine flow being smuggled through the
transit zone via non-commercial means (652 Metric Tons (MT) in FY 2011 compared to
682 MT in FY 2010). Of the FY 2011 non-commercial maritime flow, the Coast Guard
removed 75.5 MT of cocaine, down from its FY 2010 total of 91.8 MT. Relative to the
total estimated movement of non-commercial cocaine destined to the United States in FY
2011 captured in the CCDB, the Coast Guard removed 11.6% of this estimated flow,
falling short of its target of 15.5%. Comparatively, the Coast Guard’s cocaine removal rate
was 13.5% in FY 2010.

1
 Requirements 1 through 4 in this section are drawn from the Office of National Drug Control Policy
Circular: Drug Control Accounting, dated May 1, 2007.


01/20/2012                                                                           Created by DCO-81

                                                 Page 3 of 6
Enclosure (1) to letter dated January 20, 2012

Although the total number of Coast Guard interdiction and disruption events (for all drugs)
increased slightly in FY 2011 (122 in FY 2010 to 129 in FY 2011), the number of Coast
Guard cocaine removal events dropped in FY 2011 (97 in FY 2010 to 90 in FY 2011).
Reduced availability of surface and air (detection and interdiction) assets continued to
hinder counter-drug mission performance in the drug transit zone. The advancing age of
the Coast Guard’s cutter fleet leads to increased unscheduled maintenance days and
casualties, reducing the number of deployable assets available to support Joint Interagency
Task Force South (JIATF-S). Through the 2011 Department of Homeland Security (DHS)
Statement of Intent, the Coast Guard planned to provide 2,190 cutter days and 4,700
Maritime Patrol Aircraft (MPA) hours to JIATF-S, but was only able to provide 1,823
cutter days and 4,416 MPA hours for FY 2011 or approximately 83% of intended cutter
days and 94% of intended MPA hours.

In addition to reduced asset and resource availability, the following also contributed to the
Coast Guard missing its FY 2011 Cocaine Removal Rate target:
    •	 Smaller average load size per Coast Guard cocaine removal event (839 kg in FY
        2011 compared to 946 kg in FY 2010) 2 and
    •	 Increasingly sophisticated and evolving Transnational Criminal Organization
        tactics (e.g. greater use of self-propelled semi- and fully-submersibles).

(3) The agency should describe the performance target for FY 2012 and how the agency plans to meet this
target. If the target in FY 2011 was not achieved, this explanation should detail how the agency plans to
overcome prior year challenges to meet targets in FY 2012.

The Coast Guard’s target for FY 2012 is to remove 16.5% percent of the cocaine moving
via non-commercial maritime means towards the United States. This target was developed
by examining historical trends, as well as forecasting asset and resource availability along
with the estimated flow of cocaine. The Coast Guard works cooperatively with other
federal agencies to carry out the National Drug Control Strategy, including support for the
JIATF-S counter drug detection and monitoring mission. To increase interdiction
capability and capacity, the Coast Guard has several initiatives which are expected to come
to fruition in FY 2012. Two National Security Cutters (BERTHOLF and WAESCHE) will
be available for deployment to the JIATF-S Area of Responsibility. The Coast Guard and
the U.S. Navy (USN) will continue to pursue expansion of Airborne Use of Force
capability with the USN expecting to deploy AUF helicopters during nighttime operations
in FY 2012 to improve the interdiction and “end game” prosecution of drug traffickers
using go-fast vessels. The Coast Guard’s Research and Development Center is creating a
visible marking device to assist in the recovery of jettisoned contraband, facilitating an
increase in actionable intelligence through additional prosecutions and more accurate load
size estimates within the CCDB. The Coast Guard will continue its counter drug hidden
compartment detection course at the Maritime Law Enforcement Academy in FY 2012,
which will improve boarding teams’ ability to investigate, search, locate, and access hidden
2
  The FY 2010 Performance Summary Report discussed average cocaine load size per event—this statistic
considered all Coast Guard drug removal events. Using the FY 2010 methodology, the average cocaine load
size per Coast Guard drug removal event would still be on the decline (585 kg in FY 2011 compared to 753
kg in FY 2010).

01/20/2012	                                                                       Created by DCO-81

                                               Page 4 of 6
Enclosure (1) to letter dated January 20, 2012

compartments on suspect vessels. With go-fast type vessels remaining the primary means
of conveyance by DTOs operating in and around the littorals, the Coast Guard will
continue to expand its use of bilateral agreements, as well as provide training programs and
engage in professional exchanges to enhance partner nation capability and to support
Theater Security Cooperation initiatives. Such engagement strengthens ties with source and
transit zone partner nations and increases their maritime law enforcement competency and
capability throughout the transit zone. Based on its baseline of performance and the
expanded capabilities mentioned, the Coast Guard expects that it can achieve its FY 2012
target.
(4) The agency should describe the procedures used to ensure performance data for this measure are accurate,
complete, and unbiased in presentation and substance. The agency should also describe the methodology used
to establish targets and actual results, as well as the data source(s) used to collect information.

The data used to calculate the Coast Guard’s Cocaine Removal Rate is drawn from the
interagency-validated CCDB. The amount of cocaine removed by the Coast Guard is the
sum of all cocaine that is physically seized by Coast Guard personnel and all cocaine lost
to the DTOs due to the Coast Guard’s efforts. The latter amount is at times an intelligence-
based estimate of the quantity of cocaine onboard a given vessel that is burned, jettisoned,
or scuttled in an attempt to destroy evidence when Coast Guard presence is detected.
Cocaine removals are drawn from the CCDB. Data entered into the CCDB are approved
through a quarterly, interagency vetting process. Although the cocaine removals are
originally reported in kilograms, the Coast Guard converts the removal to metric tons to
compute the Cocaine Removal Rate. The estimated non-commercial maritime flow of
cocaine towards the United States is extracted from the CCDB. All data contained in the
CCDB are deemed to be as accurate, complete and unbiased in presentation and substance
as possible.

At least annually, the Coast Guard’s Maritime Law Enforcement Program and Deputy
Commandant for Operations’ Office of Performance Management and Assessment review
all the assumptions that factor into the setting of its out-year targets, and makes
adjustments as necessary. Revisions to the targets are reported via the Department of
Homeland Security’s Future Year Homeland Security Program database.

The Maritime Law Enforcement Program last updated its out-year performance targets in
March 2011 in conjunction with normal target setting timelines. The key factors that drive
the target setting process are the estimated out-year cocaine flow, the projected availability
of Coast Guard resources (major cutters, long range MPA, Law Enforcement Detachments
(LEDET) and Airborne Use of Force (AUF) helicopters), and any anticipated changes in
Coast Guard capabilities, authorities, or partnerships that may impact cocaine removals.

II. MANAGEMENT’S ASSERTIONS

The Report should include a letter in which an accountable agency official makes the
following assertions regarding the information presented above:

    (1) Performance reporting system is appropriate and applied – The agency has a
01/20/2012                                                                        Created by DCO-81

                                               Page 5 of 6
Enclosure (1) to letter dated January 20, 2012

   system to capture performance information accurately and that system was properly
   applied to generate the performance data.

The Coast Guard performance reporting system is appropriate and applied. It was
reviewed in a 2007 Independent Program Evaluation by the Center for Naval Analyses and
a 2007 OMB PART evaluation. Both reviews verified the appropriateness and application
of the performance reporting system, and the Coast Guard has made all significant changes
recommended to ensure continued validity. The metric was also reviewed and approved by
DHS leadership in 2010.

   (2) Explanations for not meeting performance targets are reasonable – The 

   explanation(s) offered for failing to meet a performance target and for any

   recommendations concerning plans and schedules for meeting future targets are 

   reasonable. 


The Coast Guard did not meet its FY11 performance target. The explanations offered for
failing to meet the target are reasonable. The Coast Guard’s FY 2011 performance target
satisfied OMB Circular A-11 guidance for establishing targets.

   (3) Methodology to establish performance targets is reasonable and applied – The
   methodology described above to establish performance targets for the current year is
   reasonable given past performance and available resources.

The Coast Guard methodology to establish performance targets is reasonable and applied.
The Coast Guard uses a quantitative and qualitative process that reviews intelligence,
logistics, strategic and operational policy, capability, emerging trends, past performance,
and capacity variables impacting mission performance to establish performance targets.
Targets generated by the program manager are reviewed independently by performance
and budget oversight offices at Coast Guard Headquarters, as well as the DHS Office of
Program Analysis and Evaluation, prior to entry into budget documents and the DHS
Future Year Homeland Security Program database.

   (4) Adequate performance measures exist for all significant drug control activities

The 2007 OMB PART of the Coast Guard Drug Interdiction Program and 2007
Independent Program Evaluation by the Center for Naval Analyses validated the adequacy
of Coast Guard performance measures.

The agency has established one acceptable performance measure that covers all four
budget decision units for which a significant amount of obligations ($1,000,000 or 50
percent of the agency drug budget, whichever is less) were incurred in the previous fiscal
year.




01/20/2012                                                            Created by DCO-81

                                        Page 6 of 6
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Office of National Drug and Control Policy

                      Associate Director for Planning and Budget

                      United States Coast Guard

                      Commandant
                      Chief Financial Officer
                      Chief Information Officer

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
